iP'OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
coritact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

WebSite
wwwxocklelegalbriefs.com
No.
FORMER PROSECUTOR MACARIETO1. TRAYVILLA
CELEST1NA PINERO-TRAYVILLA.
REY LOUIS P. TRAYVILLA, ESQ., and
SHERRY LYN DORADO-TRAYVILLA,
Petitioners,
v.
JAPAN AIRLINES (JAL) and ERJON FJORA,
in his capacity as employee ofJAL,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of March, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
MACARIETO I. TRAYVILLA
CELESTINA PINERO-TRAYVILLA
SHERRY LYN DORADO-TRAYVILLA
REY LOUIS P. TRAYVILLA
Petitioners, Pro Se
LAW OFFICES OF REY TRAYVILLA
39-14, 63rd Street
Woodside. New York 11377
(646)474-2164
paroy_t@yahoo.com

Subscribed and sworn to before me this 19th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

r
1

GENERAL KQTARY-State of Kefcraska
I

RENEE J. GOSS
My Comm. Exp. September 5, £0231

Notary Public

Affiant

40774

A

CLYDE & CO US LLP
Andrew J. Harakas
The Chrysler Building
405 Lexington Avenue, 16th Floor
New York, New York 10174
212-710-3920

J

J

COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

'^.^^VLegal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.
FORMER PROSECUTOR MACARIETO I. TRAYV1LLA,
CELESTINA PINERO-TRAYVILLA,
REY LOUIS P. TRAYVILLA, ESQ., and
SHERRY LYN DORADO-TRAYVILLA,
Petitioners,
v.
JAPAN AIRLINES (JAL) and ERJON FJORA,
in his capacity as employee of JAL,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1 (b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4386 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL KOTARY-State of Nebraska
HENEEJ.GOSS
fggjggPM My Comm. Exp. September S, 2023

Notary Public V

Affiant

40774

